OIG Investigative Reports, Montana Student Indicted and Arrested
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
NEWS RELEASE
FOR IMMEDIATE RELEASE:
September 18, 2006
U.S. Department of Justice
WILLIAM W. MERCER
United States Attorney
District of Montana
Contact:
Kurt Alme, Assistant U.S. Attorney for the
District of Montana
(406) 247-4669
INFORMATIONAL: FEDERAL COURT ARRAIGNMENTS.
Bill Mercer, United States Attorney for the District of Montana, announced
today that during a federal court session in Missoula, on September 18, 2006,
before U.S. Magistrate Judge Jeremiah C. Lynch, the following individuals were
arraigned:
DENNIS GONZALES appeared on charges of federal educational assistance fraud,
aggravated identity theft, and theft of federal government money. He is currently
detained. If convicted of these charges, GONZALES faces possible penalties of
10 years in prison, a $250,000 fine and 3 years supervised release. In addition,
GONZALES faces the possibility of an additional mandatory two year imprisonment,
consecutive to any other sentence, for aggravated identity theft. Assistant
U.S. Attorney Carl E. Rostad is the prosecutor for the United States. The investigation
was conducted by the Department of Education.
The defendants pled not guilty to the charges.
The charge, an indictment, information or complaint, is merely an accusation
and all persons named as defendants are presumed innocent until proven guilty.
A pre-trial conference and a trial date will be set and the United States will
be required to prove the allegations set forth in the indictment beyond a reasonable
doubt.
Printable view
Share this page
Last Modified: 09/25/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov